NATIONAL CREDIT UNION ADMINISTRATION

      OFFICE OF INSPECTOR GENERAL




             TRAVEL CARD
               REVIEW


      OIG-02-10   September 16, 2002




          WILLIAM A. DeSARNO
       ACTING INSPECTOR GENERAL
                   TABLE OF CONTENTS
                                                                     PAGE

EXECUTIVE SUMMARY                                                     1

BACKGROUND                                                            3

OBJECTIVES, SCOPE and METHODOLOGY                                     6

REVIEW RESULTS                                                        8

    Individual Travel Cards Not Always Used Appropriately             8

    Travel Card Usage Guidance Needs Clarification                    11

    Card Management Issues Need To Be Addressed                       12

    Centrally Billed Travel Cards Could Use Additional Controls       14

APPENDICES

    Appendix A – NCUA Travel Card Process, Policies and Procedures    16

    Appendix B – Sample Results by Vendor Type and Sample Strata      20

    Appendix C – Sample Results by Magnitude                          35
                            EXECUTIVE SUMMARY

Recent reports by the General Accounting Office and Offices of Inspectors General of
other Federal agencies, as well as congressional correspondence, have raised serious
concerns over the adequacy of internal controls over the use of government credit cards.
Reports of fraudulent and unauthorized expenditures have exposed a widespread pattern
of abuse involving government contractor- issued travel cards. As a result, the National
Credit Union Administration (NCUA) Office of Inspector General (OIG) performed a
review of NCUA’s SmartPay Visa travel card program. The objective of this review was
to determine if, and to what extent, NCUA employees are misusing NCUA travel credit
cards.

NCUA has issued 957 individually billed government travel cards to pay expenses of
NCUA personnel during official travel. There are 10 centrally billed, government issued
travel cards. We reviewed the activity on 158 individually billed travel cards and four of
the centrally billed travel cards for the period January 2000 through November 2001. We
identified charges where the type of vendor and/or location of the vendor seemed to
indicate that the charges were not for official government travel.

According to our review, we identified 69 of 158 individually billed travel cards as
having possibly been misused. Of the 69 travel cards with possible misuse charges, 37
had three or less suspect charges (possible misuse/inappropriate use) and 23 had suspect
charges of $100 or less. However, 15 cards (9.5%) had eleven or more suspect charges
and 22 cards (14%) had charges in excess of $500. We further noted that past due
accounts accounted for most of the suspect charges. NCUA had 34 past due accounts at
the time of our review and they accounted for 60% of the number of suspect charges in
our sample and 47% of the dollar value of the suspect charges.

The most frequent misuse charges to the NCUA travel card were for grocery stores,
restaurants in the employee’s duty station, and various retail establishments. We also
noted that some employees used their travel card for office supplies, professional
publications and representation expenses. While recognizing that these represent official
business expenses, NCUA’s current travel charge card policy is unclear as to what
circumstances, if any, would warrant an employee using the NCUA travel card for these
expenses.

NCUA can restrict purchases on travel cards by type of vendor (e.g., amusement park).
However, the agency currently makes limited use of this retail blocking option. We
noted several instances where charges were made to vendors that appeared unlikely to be
for official travel.

We identified several card management issues that need to be addressed. For example,
we identified 52 cardholders who are no longer NCUA employees. Of the 14 accounts
we reviewed, one cardholder had used the government travel card after his termination of
employment with NCUA. In addition, substantially all staff have the same monthly


                                            1
spending limit of $10,000 on their travel card. However, the amount of travel varies
widely, usually by type of position, among staff.

Centrally billed travel cards also need additional controls. We noted that centrally billed
travel cards appear to have excessively high monthly spending limits and none of them
has an agency oversight official assigned to the respective accounts.

This report makes nine recommendations to improve the NCUA travel card program.




                                             2
                                   BACKGROUND

 BANK OF AMERICA CONTRACT

In 1998 NCUA contracted, through a GSA contract, with Nations Bank (now Bank of
America) to provide individually billed Visa travel cards to NCUA employees. Centrally
billed Visa travel cards were provided to select NCUA employees.

The Bank of America (BOA) travel card program allows NCUA to establish certain
spending limit and vendor controls on all cards issued to its employees. These controls
can be dollar limitations or particular type of vendor limitations. Spending control
options are:

   •   Spending limit per cycle (a dollar spending ceiling per billing cycle)
   •   Single purchase limit (a dollar spending ceiling per purchase)
   •   Velocity limits by day, month, or cycle (a dollar spending ceiling by time frame)
   •   Merchant category code restrictions (a type of vendor by BOA codes; for instance
       restaurants may be code 5812)

Bank of America system management reports are available to the Agency/Organization
Program Coordinators (AOPCs) through an on- line reporting system. There are two
general types of reports available:

   •   Standard – Examples are delinquency report, account activity report, and
       statistical summary report.
   •   Ad hoc/Customized – These are customized designed reports using the vendor’s
       database of information.

Agency/Organization Program Coordinator responsibilities include:

   •   Understanding and communicating to cardhold ers, NCUA’s policies and
       procedures for official government travel
   •   Maintaining point of contact information for NCUA
   •   Specifying present authorization limits (dollar and merchant code restrictions)
   •   Activating optional services and new cardholders
   •   Reviewing reports to monitor cardholder activity

Cardholder responsibilities include:

   •   Using the card for the purchase of official travel-related services as specified in
       the GSA master contract
   •   Understanding and complying with NCUA’s policy regarding the definition of
       authorized purchases and official government travel.




                                             3
   •    Assuming personal responsibility for paying travel card (individually billed
        accounts) charges by the statement due date, and complying with the terms and
        conditions of the Cardholder Agreement.

Designated Billing Office (Centrally billed accounts) responsibilities include:

   •    Ensuring centrally billed travel accounts are correct for payment
   •    Properly processing invoices for payment and in accordance with the Prompt
        Payment Act

Bank of America defined responsibilities include:

   •    24 hour/- seven days a week customer service
   •    Electronic transaction data and reporting
   •    On-demand activation/deactivation of travel cards

Bank of America Guidelines for travel card use state:

   •    Generally reserved for purchase related to, and made during, official government
        travel only
   •    Generally, the card will be accepted by merchants for the following types of
        service

        1.   Air travel
        2.   Lodging
        3.   Auto rental
        4.   Fuel
        5.   Rail travel
        6.   Transportation
        7.   Food
        8.   ATM access (NOT used by NCUA)

 NUMBER OF CARDS ISSUED


Individually Billed Accounts (IBA)

The 2001 NCUA annual budget authorized 1,028 full time equivalent employees. At the
time of our review, NCUA had 957 individually billed travel card accounts. All but five
of these accounts have a $10,000 cycle limit.

    •   One supervisory examiner has a $20,000 cycle limit
    •   One supervisory examiner has a $15,000 cycle limit
    •   One field examiner has a $5,000 cycle limit
    •   One AMAC employee has a $2,500 cycle limit
    •   One field examiner has a $2,500 cycle limit


                                             4
Centrally Billed Accounts (CBA)

There are ten centrally billed travel cards, distributed as follows:

OFFICE/REGION                             # CARDS                      MONTHLY CYCLE
                                                                                LIMIT
Region I                                      1                                $25,000
Region II                                     1                                $25,000
Region III                                    1                               $100,000
Region IV                                     1                                $25,000
Region V                                      1                                $25,000
Region VI                                     1                                $25,000
AMAC                                          1                                $25,000
Training/Development                          1                                $70,000
Office of Chief Financial                     1                                $50,000
Officer                                       1                               $200,000
           Total                             10




                                              5
               OBJECTIVES, SCOPE and METHODOLOGY


 OBJECTIVES


Our review objectives were to determine if there is any inappropriate use of NCUA travel
cards. And, if any inappropriate use is discovered, to determine the extent of such
misuse.


 SCOPE

This review was performed in accordance with generally accepted governmental auditing
standards issued by the Comptroller General of the United States. This review was
limited in that we did not interview any cardholders or review any travel vouchers or
supporting documentation for the charges on the individual accounts. Specifically we
reviewed:

   •    100% of SSPs travel card usage for the period of January 2000 to November
        2001.
   •    Approximately 10% (randomly selected) of Central Office Non-SSP staff, with at
        least one staff member per office, for the period of January 2000 to November
        2001.
   •    Card usage for travel cards which had Bank of America “Qualifiers”. Reviewed
        100% of Qualifier accounts: past due; suspended; closed due to security reasons;
        “plastic returned”; and “didn’t use.” Reviewed 12 of 28 Qualifier accounts;
        cancelled and charged-off.
   •    Fourteen of 55 open travel card accounts for employees who have separated from
        NCUA.
   •    Four centrally and 5 individually billed travel accounts which had higher than
        normal credit limits.

Below is a table showing the total number of individually billed cardholders reviewed.

         Total         Central Office Staff        Field Staff           Separated
       Reviewed                                                          Employees
         158                    53                     83                   22




                                              6
Below is a table showing the gross total number of cardholders reviewed:

SAMPLE            # IN SAMPLE         CENTRAL              FIELD        TRANSACTION
CATEGORY           CATEGORY            OFFICE                             REVIEW
SSPs                    37               19                  18             37
C. O. Staff             15               15                                 15
Past Due                34                5                  29             34
Suspended                1                                    1              1
Cancelled*              13                  2                 3              6
Charged-Off*            15                  1                 2              6
Security*               45                 10                26             45
Returned Card            1                  1                                1
Didn’t Use*              1                                    1              1

Separated Emp.           55                                                     14

IBA $ Limit              5                                    5                  5
CBA $ Limit              4                 3                  1                  4

       Totals           226                56                86                169

* All of these accounts were closed. The number of central office and field staff are
current employees.

Note: There are eleven samples that are duplicates (1 person in two samples, e.g., past
      due and security)
      Eight of the 13 cancelled cardholders are separated employees.
      Twelve of the 15 charged-off cardholders are separated employees.
      Nine of the 45 security cardholders are separated employees.
      Five of the “separated employees” are current employees who had name changes.

 METHODOLOGY


The criteria we used to flag transactions for potential misuse was judgmentally selected
based upon dollar amount, “unusual vendor name, and/or “unusual” vendor code.

   •   Interviewed NCUA staff and BOA officials.
   •   Reviewed NCUA policies and procedures.
   •   Reviewed BOA travel card program documentation.
   •   Reviewed travel cardhold er profiles.
   •   Reviewed travel cardholder account activity.

All accounts with at least one potentially misused charge were forwarded to the NCUA
OIG Office of Investigations for further review.



                                            7
                                REVIEW RESULTS

 INDIVIDUAL TRAVEL CARDS
 NOT ALWAYS USED
 APPROPRIATELY

At the time of our review, NCUA had 957 open travel cards billed to individual
cardholders. All six regions and all central offices have cardholders. We reviewed a
sample of 158 individual travel cardholders for the period of January 2000 through
November 2001. See the Objectives, Scope and Methodology section for details of the
sample selected.

We found that 69 of the 158 cardholders had possibly misused their government issued
travel card. The results by staff type are as follows:

                      TOTAL            CENTRAL          FIELD STAFF        SEPARATED
                                        OFFICE                               STAFF
Possible Misuse           69              23                   41               5
Total Reviewed           158              53                   83              22

Thirty-seven of the 69 cardholders with possible misuse charges had three or fewer
possible misuse charges, and 23 had total possible misuse charges of $100 or less.

Fifteen (9.5%) of the 158 cardholders had eleven or more possible misuse charges and 22
(14%) had total possible misuse charges of $500 or more. See Appendix C for a more
detailed breakdown.

We noted, however, that NCUA’s 34 past due accounts accounted for most of the suspect
charges. At the time of our review, the 34 past due accounts accounted for 60% of the
possible misuse charges and 47% of the dollar value of the possible misuse charges. See
Appendix B (page 25) for detailed information on the past due accounts.

The five separated staff had one person with three or fewer possible misuse charges; three
persons with between four and ten charges; and one person with eleven or more. The
five separated staff had one person with total possible misuse charges between $101 and
$500 and the fo ur other persons had total charges over $500.

There were a total of 561 total possible misuse transactions totaling $37,697 for the 69
staff. See Appendix B (page 20) for a more detailed description. The types of vendors
identified for the above charges are as follows:




                                            8
TYPE OF VENDOR                  NUMBER OF CHARGES               AMOUNT OF CHARGES
Grocery Stores                         151                                   $4,468
Restaurants at Duty Station            100                                    2,745
Misc. Retail Vendor                     93                                    5,379
Internet Service, Telephone             50                                    3,251
Auto Service, Repair, Ins.              46                                    3,939
Recreational Vendors                    34                                    5,630
Department Stores                       24                                    1,301
Bookstores                              16                                      470
Hardware, Bldg. Supply                  12                                      524
Home Furnishings                         5                                    2,385
Cosmetic Vendors                         3                                    2,658
Video, Movie Rental                      2                                       54
Other                                   25                                    4,893

Total                                       561                                     $37,697


At the time of our review, the only noted monitoring performed by agency officials was
reviewing BOA delinquency reports. However, during the course of our review, the
agency implemented the following procedures that office and regional directors must
observe:

   •    Prior to card renewal, each office and regional director will review cards issued to
        employees who do not travel on a routine basis. If the volume of use does not
        warrant maintaining the card, it will be cancelled.
   •    Office and Regional Directors should determine whether or not each current
        cardholder travels on a frequent basis. Those employees who do not travel on a
        frequent basis should either have the card cancelled or have the card held in the
        office, to be released to the employee only when they will be traveling for
        business reasons.
   •    Each office and regional director will, on at least a quarterly basis, request and
        review cardholder activity of a random sample of staff for appropriate use.
   •    After completion of the quarterly random sample review of cardholder activity,
        Regional and Office Directors should send a message to OCFO and OED
        indicating that they have completed their random sample review. If the review
        reveals card abuse by an employee, the Office of Inspector General should be
        alerted.

RECOMMENDATION 1:

NCUA should consider using the credit card deactivation/activation feature for infrequent
travelers as opposed to card cancellation or requiring that the card be held in the
supervisor’s office.



                                             9
OCFO COMMENT: OCFO does not agree with this recommendation. Employees sign
an agreement with the card provider. Liability for the card, both its use and payment,
remains with the employee and the card provider. If the employee fails to meet any of the
provisions of the agreement, the card provider may cancel the card, file a negative credit
report, and sue for the unpaid amount, with interest. Accordingly, it is OCFO’s
assessment that the current procedure is far more practical, and just as effective. The
card provider system for activation/deactivation does not function in real time. In
addition, this recommended policy would require an instruction which would define an
infrequent traveler, the employee with the authority to activate/deactivate the account,
and the necessary steps for notification. A possible alternative would be to issue
transportation tickets on a centrally billed travel card, and issue the traveler a travel
advance for meals and other expenses.

RECOMMENDATION 2:

Office and regional reviewers should undergo AOPC/travel card management training.

OCFO COMMENT: OCFO agrees with this recommendation. New employees and
coordinators will be told to access the General Services Administration (GSA) website
for cardholder and agency coordinator instructions. The trainees will have to certify that
they have rev iewed this website. GSA publication, A/OPC, Survival Guide was
distributed to all regional offices and the OIG last summer. In addition, there is a weekly
E-newsletter circulated to all A/OPCs.

RECOMMENDATION 3:

The OCFO AOPCs should independently review a random selection of government
issued travel cards for inappropriate use. The AOPCs would add consistency to the type
of review already being performed by office and regional directors; would make better
use of sampling economies of scale; and would be able to identify agency-wide trends
that need to be addressed. Any possible misuses should be forwarded to the OIG Office
of investigations. The AOPCs could also monitor cardholder activity more effectively by
making better use of BOA standard reports, such as activity reports, and customized
exception reports.

OCFO COMMENT: OCFO agrees with this recommendation. A/OPCs have access to
individual accounts, and may execute reports. Since accounts are not updated on a daily
basis and there is a delay with individual vendors, OCFO is not sure about the degree of
effectiveness this process would have. Additionally, since supervisors are knowledgeable
concerning actual travel, and responsible for certifying the travel voucher, the supervisor
or office director should be the individual that notifies the OIG of possible misuses.




                                            10
 TRAVEL CARD USAGE
 GUIDANCE NEEDS
 CLARIFICATION

NCUA policy states that all employees are required to use their travel card for all
payments of expenses of official government travel. Many NCUA staff (primarily field
staff) use their privately owned vehicles in the conduct of official business.

Our review observed that some NCUA staff used their government issued travel cards to
charge expenses related to automobile service, repairs, insurance, etc. We also noted that
28 cardholders used their government issued credit cards to purchase gasoline at their
duty station.

Most agency staff does not have a government purchase card. Essentially, a government
purchase card is used to purchase official government goods and services. However,
there are official government expenses that some employees incur on a regular basis, and
do not have a purchase card with which to charge them. For instance:

   •   Field staff purchase basic office supplies
   •   Field staff purchase professional or industry related publications
   •   Top management officials incur representation expenses

We noted that 43 cardholders purchased supplies with their government issued credit
cards. In addition, seven SSPs charged restaurant meals at their duty station. Some of
these may have been attributable to representation expenses.

While not documented in agency policies, OCFO officials informed us that staff may use
their government issued travel card for any purchases that can be legitimately claimed on
a travel or expense voucher. This, despite the fact that, some of these business expenses
may not be related to official travel.

RECOMMENDATION 4:

NCUA should define the term “official government travel” for the purpose of travel card
use. The agency should further establish a clear policy delineating what types of
expenses the government issued travel card can be used to charge. For example:

   •   Who and under what limitations can staff charge gasoline for their privately
       owned vehicles?
   •   Can any expense that can be claimed on a travel or expense voucher be charged
       on a travel card?
   •   When can credit card purchases be made for business supplies and publications?

OCFO COMMENT: OCFO agrees with this recommendation. Each agency may
customize their work order/agreement with BOA and establish specific policy for the use


                                            11
of their travel card through the directives system. NCUA will be revising policies
concerning this issue in the near future.


 CARD MANAGEMENT ISSUES
 NEED TO BE ADDRESSED

Monthly Dollar Spending Limits on Travel Cards may be Excessive

All but five individual travel cards had a $10,000 monthly billing cycle limit. There is no
single purchase or daily spending limit on any of the cards. Two field staff employees
have a monthly limit in excess of $10,000. One has a $15,000 monthly spending limit
and the other has a $20,000 spending limit. Based upon our review of transaction activity
for over a year long period of time, we do not believe that those limits are justified. Two
field staff and one AMAC employee have monthly spending limits below the norm of
$10,000. One field staff person has a $5,000 monthly spending limit and the other two
employees have a $2,500 monthly spending limit. These limits appear to be
commensurate with these employees’ respective credit card usage pattern.

We also observed that there is a difference in the number and dollar amount of travel
charge expenses, based upon the particular position the staff person holds. For instance,
field examiners as a general rule appeared to have more travel charges than central office
support staff.

RECOMMENDATION 5:

NCUA should review the activity patterns of similar staff positions (e.g., field staff,
support staff etc.) and determine what is a reasonable monthly threshold spending limit
for those positions.

OCFO COMMENT: OCFO agrees with this recommendation.

Merchant Code Restrictions (MCC) Could be Expanded

NCUA, through the Bank of America, can restrict certain types of vendors (for instance
Golf Courses) that a cardholder can charge expenses for. Currently, the individually
billed government travel cards have only a few BOA merchant code restrictions. They
are:

   •   Wire Transfer Money Orders (code 4829)
   •   Financial Institutions-Manual Cash Disbursements (6010)
   •   Financial Institutions-Automated Cash Disbursements (6011)
   •   Financial Institutions-Merchandise Services/Convenience Checks (6012)
   •   Non-Financial Institution Foreign Currency (6051)
   •   Betting – Including Lottery, Gaming Chips, and Track Wagers (7995)



                                            12
During our review we noted charges made by staff to merchant codes that appeared
unlikely to be related to official travel expenses. These included:

   •   Home furnishings
   •   Hardware and building supply stores
   •   Pet stores
   •   Children’s clothing store
   •   Video game supplies
   •   Amusement park
   •   Insurance premiums
   •   Flowers
   •   Sporting goods store
   •   Cable service
   •   Cosmetic store
   •   Beauty shop
   •   Record shop

There are numerous other MCC codes that are currently unrestricted on the travel cards
besides the types of charges that we noted above. These charges likewise seem unlikely
to be legitimate official travel expenses. Some examples include:

   •   Veterinary services (code 0742)
   •   Landscaping and Horticultural Services (0780)
   •   Utilities-Electric, Gas, Water, Sanitary (4900)
   •   Plumbing and Heating Equipment (5074)
   •   Petroleum and Petroleum Products (5172)
   •   Nurseries Lawn Garden Supply Stores (5261)
   •   Auto and Truck Dealers (5511 and 5521)
   •   Motor Home Dealers (5592)
   •   Snow Mobile Dealers (5598)
   •   Floor Covering Stores (5713)
   •   Camera and Photographic Supply Stores (5946)

RECOMMENDATION 6:

NCUA should review the BOA merchant code listing and determine which merchant
codes appear to be reasonable for use with the government travel cards. All merchant
codes that seem unlikely to be used for official government travel purposes should be
restricted for use on the NCUA travel cards.

OCFO COMMENT: OCFO does not fully agree with this recommendation. Merchant
Code Category listings are not always descriptive or correct. NCUA selected the
merchant codes as identified in the main contract, as determined by the credit card
vendor and GSA. NCUA does have the capability to add or delete merchant codes, but
OCFO is not sure how to identify which codes to modify. In any event, OCFO will


                                           13
review these codes with the Office of the Executive Director, and determine what
restrictions can be reasonably made.

Open Travel Card Accounts for Separated Employees

We obtained a listing of all open travel cards and compared it to a listing of all current
employees. We identified 52 individually billed travel cardholders who were no longer
NCUA employees. Three employees were noted as current employees but had changed
their names (marriage). Regional and central offices are supposed to obtain the charge
card (along with other accountable items) from the separating employee, cut it into
quarters and forwarded it to the OCFO.

We sampled 14 of the 52 separated employee cardholders and reviewed their accounts for
activity since the date of their employment termination. One of the fourteen cardholders
had used their government issued travel card after their date of employment termination.
The account statement for this individual reflected three charges for car rentals totaling
$537. We provided the names of the 52 separated employee cardholders to the OCFO for
proper disposition.

RECOMMENDATION 7:

At least annually, the agency (AOPCs) should review all open travel cards compared to a
current employee listing. NCUA should review its internal control process for employee
accountable items when employees terminate or transfer.

OCFO COMMENT: OCFO agrees with this recommendation. This task could be
accomplished with summer interns.


 CENTRALLY BILLED TRAVEL
 CARDS COULD USE
 ADDITIONAL CONTROLS

Monthly Dollar Cycle Limits May Be Excessive

The agency has 10 Centrally Billed Travel Card accounts. These are primarily used for
group meeting accommodations and state examiner travel. All six regions, AMAC and
the Division of Training and Development have one account each. The Office of the
Chief Financial Officer has two such accounts. Of these ten card accounts, six have a
$25,000 monthly cycle limit. The other four card accounts have monthly cycle limits
from $50,000 to $200,000. There are no single purchase limits on any of these card
accounts. However, through vendor code restrictions, these cards can only be used for
airfares and lodging.

All NCUA regions (except Region III), as well as AMAC, have a $25,000 monthly cycle
spending limit on their centrally billed card accounts. Region III has a centrally billed



                                            14
travel card account with a monthly cycle limit of $100,000. However, we noted that
Region III spent only an average of $26 per month during 2001 on its centrally billed
travel card. Board Delegated Authority restricts regions to spending $10,000 on any
single purchase. We did not observe any single purchase over $10,000. The table below
shows centrally billed travel card dollar usage by office or region for 2001:

OFFICE/REGION              TOTAL         MONTHLY          MONTHLY           MONTHLY
                                         AVERAGE              HIGH              LOW
Region I                   $68,112          $6,192          $24,991                $0
Region II                    4.080             371            2,277                 0
Region III                     289              26              289                 0
Region IV                    6,577             598            3,009                 0
Region V                     1,571             143              642                 0
Region VI                    7,935             721            3,165                 0
AMAC                         4,140             376            2,705                 0
OTD                        303,257          27,569           47,326            11,689
OCFO                        41,871           3,806            6,934               235

       Totals             $437,832

RECOMMENDATION 8:

NCUA should review what is a reasonable dollar activity level for these cards and
establish spending limitations accordingly.

OCFO COMMENT: OCFO agrees with this recommendation.

AOPC Designations Missing

We reviewed each cardholder’s BOA profile. The profile includes various information,
including the names of designated AOPCs, for each cardholder profile. AOPCs are the
individuals who, among other things, monitor and make changes to cardholder accounts.
There were no AOPCs designated on any of the centrally billed travel card accounts.

RECOMMENDATION 9:

NCUA should designate appropriate oversight staff member(s) (AOPCs) on all centrally
billed credit card accounts.


OCFO COMMENT: OCFO agrees with this recommendation.




                                           15
                                                                        APPENDIX A


        NCUA TRAVEL CARD PROCESS, POLICIES, AND PROCEDURES

Card issuance

   •   All federal employees are required to use the travel charge card pursuant to the
       U.S. Travel and Transportation Payment and Expense Control System, or any
       Federal contractor- issued travel charge card for all payments of expenses of
       official government travel (NCUA Bulletin 1401.02B, dated February 29, 2000)
   •   All new NCUA employees will complete an employee charge card account
       application and agreement as part of their new employee orientation. Employees
       who travel infrequently, shall complete an employee charge card account
       application and agreement three weeks prior to their next temporary duty
       assignment (Travel Manual, 3-2)
   •   The contractor (in the case of NCUA, Bank of America) will issue the charge
       cards only upon request of NCUA’s authorized representatives. (Travel Manual,
       3-2)
   •   The cont ractor (BOA) will mail charge cards directly to authorized individuals or
       to requesting offices, (Travel Manual, 3-2)

Card usage

   •   NCUA employees are required to use their BOA Visa travel charge card for
       payment of all official travel expenses unless the type of expense is exempt from
       mandatory usage. Exemptions include: vendor doesn’t accept the charge card;
       laundry/dry cleaning; local transportation systems; taxi; tips; meals when use of
       card is impractical; telephone calls when a government calling card is available;
       employee with pending charge card application; individuals traveling on
       invitational travel; and new appointees.(Bulletin 1401.02B and Travel Manual,
       3-2)
   •   NCUA policy is that persons in a travel status be reimbursed for all necessary and
       reasonable expenses essential to transacting official government business. (Travel
       Manual, 1-3)
   •   Charge cards issued will be used solely for expenses incurred in conjunction with
       official travel. Unofficial use of a government charge card may result in
       discip linary action. There is no preset limit on the charge cards. (Travel Manual,
       3-2)
   •   All employees are to use their government travel card only for official travel
       expenses. Personal use or late payment of the government travel card may result
       in disciplinary action. (Executive Director memorandum to all NCUA
       employees dated May 18, 2001; and ED memorandum to all NCUA
       employees dated November 8, 2001)
   •   Authority to reimburse actual and necessary subsistence (actual expenses)
       incurred during official travel is contingent upon entitlement to per diem (Travel
       Manual, 6-1)



                                           16
                                                                        APPENDIX A

   •   An employee will not be reimbursed for per diem at the permanent duty station
       unless he or she is directed to secure overnight lodging to enable the employee to
       participate in a training program or to attend a business-related meeting or a
       special event sponsored by NCUA. The permanent duty station is defined as the
       corporate limits of the city or town to which an employee is permanently
       assigned. (Travel Manual, 5-1)
   •   Per diem includes expenditures for meals; lodging; fees and tips; and official
       government luggage. (Travel Manual, 5-2)
   •   Per diem is not allowed for travel of less than 10 hours within the same calendar
       day unless the travel status begins before 6am or ends after 8pm, and the traveler
       is in travel status for more than six hours. Meals and incidental expenses are not
       reimbursable when the employee is taking a training course, attending a luncheon
       or a dinner meeting at the employee’s permanent duty station or in the
       surrounding metropolitan area unless specifically approved by the regional or
       central office director. (Travel Manual, 5-4)
   •   Travel on official government business must be by the method of transportation
       which will result in the greatest advantage to the government, cost and other
       factors considered (Travel Manual, 2-1). Mileage may be paid from where the
       employee begins travel. There is no need for NCUA employees to purchase
       liability coverage from private carriers for business use of their POVs. (Travel
       Manual, 2-3)
   •   Normal daily travel by an employee to and from work before and after the regular
       workday is considered commuting time. Commuting time for examiners and
       supervisory examiners is considered to be time spent in travel by automobile or
       local public transportation from home or lodging to the first official contact plus
       the time necessary to return home or other lodging form the last official contact
       that day. Commuting time is considered incident to employment and is not
       compensable, unless the total commuting time exceeds two hours in a day and has
       supervisory approval. Official travel, for computing per diem allowances, begins
       at the time the traveler leaves the home, office or other point of departure and
       ends when the traveler returns at the conclusions of the trip. (Bulletin 1201.01 B,
       dated June 14, 2002)
   •   Rental of vehicles will be approved only when necessary for official business.
       Repair of the employee’s privately owned vehicle is not justification for renting a
       vehicle. Reasons why a rental vehicle was needed must be stated on the travel
       voucher. (Travel Manual, 2-8)

Non-travel employee expenses

   •   Employees are required to use their government issued telephone cards when
       making personal telephone calls, while on travel. If they do not have a
       government issued telephone card, they are entitled to an allowance of $5.00 per
       night. (Instruction 1401, dated October 29, 1997)
   •   Supervisory, corporate and field examiners purchase basic office supplies locally
       and claim reimbursement on their expense/travel voucher. Supplies do not



                                           17
                                                                         APPENDIX A

       include equipment, furniture/furnishings, PC hardware, software, and/or
       accessories.(Instruction 1770.10, dated March 23, 1998)
   •   Supervisory examiners, field examiners, problem case officers, corporate
       supervisory examiners, corporate exa miners, field training specialists, and field
       economic development specialists may claim reimbursement for any professional
       or industry related publication up to $120 per year. All claims for reimbursement
       are on standard form 1164. (Bulletin 1771.01B, dated February 26, 2002)
   •   The Chairman, Board members, executive director, regional director and AMAC
       may claim reimbursement for representation expenses, subject to budgetary
       limitations. The above staff may designate representatives within their respective
       offices to be eligible for reimbursement. Other than Board members, staff must
       forward a memorandum to the executive director for approval and the OCFO for
       payment. The memorandum details the date the expense was incurred, the
       purpose of the function and those in attendance along with attached receipts.
       Board members and their designees submit their requests directly to the CFO.
       The CFO will maintain all documentation (Instruction 2020.2, dated January
       26, 1998)

Card payments

   •   Except for promptly reported lost or stolen charge cards, employees with
       individually assigned charge cards are liable for all billed charges. At the request
       of the contractor, NCUA may assist in the collection process of individual
       employee accounts delinquent after 60 days. NCUA will assume no liability for
       charges incurred on individual employee charge cards. (Travel Manual, 3-2)
   •   All charges to the charge card account will be billed by the contractor directly to
       the individual employee on a monthly basis. All charges billed directly to the
       individual employee are due and payable in full upon receipt. Extended or partial
       payments are not permitted under this program. (Travel Manual, 3-2)
   •   Upon completion of official travel, the employee will prepare and submit a travel
       vouche r for reimbursable expenses in accordance with the Travel Manual. The
       employee’s supervisor will audit the voucher and forward, with any corrections as
       necessary, to the OCFO for payment. (Travel Manual, 3-2)

Card cancellation

   •   Cancellation of charge cards may be made by the OCFO, the employee or
       contractor. The contractor may cancel a charge card when a card’s account
       balance is 135 days past due. (Travel Manual, 3-2)
   •   Cancellation requests by employees must be confirmed through the OCFO
       (Travel Manual, 3-2)
   •   The charge card, as with other accountable items, will be surrendered to the
       agency when an employee transfers or terminates. Regional and central offices
       will include the tender of the charge card in the clearing process. The charge card
       (cut into quarters) will then be forwarded to the OCFO. (Travel Manual, 3-2)



                                            18
                                                                          APPENDIX A

Program monitoring

   •   Prior to travel card renewal, each office and regional director will review cards
       issued to employees who do not travel on a routine basis. If the volume of use
       does not warrant maintaining the card, it will be cancelled. Each office and
       regional director will, on at least a quarterly basis, request and review cardholder
       activity of a random sample of staff for appropriateness. (Executive Director
       memorandum dated November 8, 2001)




                                            19
                                                                             APPENDIX B


          SAMPLE RESULTS BY VENDOR TYPE AND SAMPLE STRATA

The table below shows the net total of possible misuses of travel cards by type of vendor.
This total is net of duplications within sample strata (i.e. past due, security etc). In other
words, a single employee could have been in the past due sample strata and security
sample strata. The column “# Net Total Card Users” is the number of cardholders who
had at least one charge with that type of vendor (i.e. Misc Retail Vendors). This table
includes current as well as separated employees. This table includes the activity for 158
cardholders.

TYPE OF            # NET            #               AVG. #       TOTAL $          AVG. $
CHARGE            TOTAL          CHARGES           CHARGES       CHARGES         CHARGES
                  CARD
                  USERS
Misc. Retail         31               93              3             $5,379           $174
Vendors
Duty Station         27              100             3.7            2,745             102
Restaurants
Recreational         20               34             1.7            5,630             282
Vendors
Department           13               24             1.8            1,301             100
Stores
Duty Station         12              151             12.6           4,468             372
Grocery
Auto Svc,            11               46             4.2            3,939             358
Repair, Ins
Internet,            11               50             4.5            3,251             296
Telephone
Home                  5               5               1             2,385             477
Furnishings
Hardware,             3               12              4              524              175
Bldg Supp
Video                 2               2               1               54              27
Movie Rent
Cosmetic              2               3              1.5            2,658            1,329
Vendors
Bookstores            7               16             2.3             470              67

Other                 8               25             3.1            4,893             612

Total                                561                           $37,697




                                              20
                                                                          APPENDIX B

The table below shows the net total of possible misuses of travel cards by type of vendor.
This total is net of duplications within sample strata (i.e. past due, security etc). This
table does not include separated employees. This table shows the activity for 144
cardholders.

TYPE OF           # NET           #               AVG. #      TOTAL $          AVG. $
CHARGE           TOTAL         CHARGES           CHARGES      CHARGES         CHARGES
                 CARD
                 USERS
Misc. Retail        28              83              3            $4,916          $176
Vendors
Duty Station        26              97             3.7           2,647            102
Restaurants
Recreational        19              33             1.7           5,510            290
Vendors
Department          10              20              2            1,155            116
Stores
Duty Station        10             145             15            4,352            435
Grocery
Auto Svc,           10              44             4.4           3,925            393
Repair, Ins
Internet,           10              48             4.8           3,076            308
Telephone
Home                 4               4              1            2,363            591
Furnishings
Hardware,            3              12              4             524             175
Bldg Supp
Video                2               2              1              54             27
Movie Rent
Cosmetic             0
Vendors
Bookstores           6              15             2.5            430             72

Other                8              25             3.1           4,893            612

Total                              528                          $33,845




                                            21
                                                                             APPENDIX B


The table below shows the gross total of possible misuses of travel cards by type of
vendor. This table includes duplications by strata (i.e. past due, security etc.), as well as
separated employees. This table includes the activity for 169 (duplicates included)
cardholders.

TYPE OF          # GROSS            #               AVG. #       TOTAL $          AVG. $
CHARGE            TOTAL          CHARGES           CHARGES       CHARGES         CHARGES
                   CARD
                  USERS
Misc. Retail        34               120             3.5            $7,174           $211
Vendors
Duty Station         30              107             3.6            2,887             96
Restaurants
Recreational         22               40             1.8            6,647             302
Vendors
Department           15               28             1.9            1,502             100
Stores
Duty Station         14              170             12.1           5,239             374
Grocery
Auto Svc,            13               51             3.9            4,195             323
Repair, Ins
Internet,            12               53             4.4            3,553             296
Telephone
Home                  6               6               1             2,407             401
Furnishings
Hardware,             4               15             3.8             725              181
Bldg Supp
Video                 2               2               1               54              27
Movie Rent
Cosmetic              3               4              1.3            2,676             892
Vendors
Bookstores            8               17             2.1             510              64

Other                 9               33             3.7            8,201             911

Total                                646                           $45,770




                                              22
                                                                            APPENDIX B


The table below shows the SSP total of possible misuses of travel cards by type of
vendor. This table includes duplications by strata (i.e. past due, security etc.). This table
includes the activity for 37 cardholders.

TYPE OF            # SSPs           #              AVG. #        TOTAL $          AVG. $
CHARGE                           CHARGES          CHARGES        CHARGES         CHARGES
Misc. Retail          6             8               1.3            $694            $116
Vendors
Duty Station          7              25              3.6             808             115
Restaurants
Recreational          5               8              1.6             673             135
Vendors
Department            0
Stores
Duty Station          1               1               1              122             122
Grocery
Auto Svc,             1               2               2              287             287
Repair, Ins
Internet,             1               1                              309             309
Telephone
Home                  1               1               1             2,283           2,283
Furnishings
Hardware,             0
Bldg Supp
Video                 1               1               1              43               43
Movie Rent
Cosmetic              0
Vendors
Bookstores            2               3              1.5             272             136

Other                 2               2               1              434             217

Total                                52                            $5,925




                                             23
                                                                           APPENDIX B


The table below shows the non-SSP Central Office sample total of possible misuses of
travel cards by type of vendor. This table includes duplications by strata (i.e. past due,
security etc.). This table includes the activity for 15 cardholders.

TYPE OF           # C.O.           #               AVG. #       TOTAL $          AVG. $
CHARGE           SAMPLE         CHARGES           CHARGES       CHARGES         CHARGES
Misc. Retail         1             1                 1            $350            $350
Vendors
Duty Station          1               2               2              16              16
Restaurants
Recreational          1               1               1             250             250
Vendors
Department            0
Stores
Duty Station          1               1               1              49              49
Grocery
Auto Svc,             0
Repair, Ins
Internet,             0
Telephone
Home                  0
Furnishings
Hardware,             0
Bldg Supp
Video                 0
Movie Rent
Cosmetic              0
Vendors
Bookstores            0

Other                 0

Total                                 5                             $665




                                             24
                                                                           APPENDIX B


The table below shows the Past Due sample total of possible misuses of travel cards by
type of vendor. This table includes duplications by strata (i.e. past due, security etc.).
This table includes the activity for 34 cardholders.

TYPE OF          # PAST             #              AVG. #       TOTAL $          AVG. $
CHARGE          DUE ACCT        CHARGES           CHARGES       CHARGES         CHARGES
Misc. Retail        9              43               4.8          $2,016           $224
Vendors
Duty Station         11              48             4.4            1,371            125
Restaurants
Recreational          4              11             2.8            2,258            565
Vendors
Department            5              12             2.4             323              65
Stores
Duty Station          4             118              30            3,351            838
Grocery
Auto Svc,             5              35              7             2,864            573
Repair, Ins
Internet,             5              34              7             1,509            302
Telephone
Home                  2               2              1               72              36
Furnishings
Hardware,             2               8              4              391             196
Bldg Supp
Video                 1               1              1               11              11
Movie Rent
Cosmetic              0
Vendors
Bookstores            3              10             3.3              94              31

Other                 2              14              7             3,389           1,695

Total                               336                           $17,649




                                             25
                                                                      APPENDIX B


The table below shows the Suspended account sample total of possible misuses of travel
cards by type of vendor. This includes the activity for one cardholder.

TYPE OF           #              #              AVG. #      TOTAL $         AVG. $
CHARGE         SUSPEND        CHARGES          CHARGES      CHARGES        CHARGES
Misc. Retail      1              3                3           $272           $272
Vendors
Duty Station        0
Restaurants
Recreational        0
Vendors
Department          1              1              1             181            181
Stores
Duty Station        0
Grocery
Auto Svc,           0
Repair, Ins
Internet,           1              1              1              52             52
Telephone
Home                0
Furnishings
Hardware,           0
Bldg Supp
Video               0
Movie Rent
Cosmetic            0
Vendors
Bookstores          0

Other               0

Total                              5                           $505




                                          26
                                                                      APPENDIX B


The table below shows the Cancelled account sample total of possible misuses of travel
cards by type of vendor. This includes the activity for six cardholders.

TYPE OF        # CANCEL           #              AVG. #      TOTAL $         AVG. $
CHARGE                         CHARGES          CHARGES      CHARGES        CHARGES
Misc. Retail        0
Vendors
Duty Station        0
Restaurants
Recreational        0
Vendors
Department          0
Stores
Duty Station        0
Grocery
Auto Svc,           0
Repair, Ins
Internet,           0
Telephone
Home                0
Furnishings
Hardware,           0
Bldg Supp
Video               0
Movie Rent
Cosmetic            0
Vendors
Bookstores          0

Other               0

Total                               0                            $0




                                           27
                                                                          APPENDIX B


The table below shows the Charged-off account sample total of possible misuses of travel
cards by type of vendor. This table includes duplications by strata (i.e. past due, security
etc.), as well as separated employees. This includes the activity for six cardholders.

TYPE OF        # CHARGE            #              AVG. #       TOTAL $          AVG. $
CHARGE            OFF           CHARGES          CHARGES       CHARGES         CHARGES
Misc. Retail       1               6                6            $196            $196
Vendors
Duty Station         1               3               3              98              98
Restaurants
Recreational         0
Vendors
Department           1               1               1              78              78
Stores
Duty Station         1               5               5              86              86
Grocery
Auto Svc,            1               2               2              14              14
Repair, Ins
Internet,            0
Telephone
Home                 1               1               1              22              22
Furnishings
Hardware,            0
Bldg Supp
Video                0
Movie Rent
Cosmetic             1               1               1              18              18
Vendors
Bookstores           1               1               1              40              40

Other                0

Total                                20                            $552




                                            28
                                                                          APPENDIX B


The table below shows the accounts closed due to Security reasons sample total of
possible misuses of travel cards by type of vendor. This table includes duplications by
strata (i.e. past due, security etc.), as well as separated employees. This includes the
activity for 45 cardholders.

TYPE OF            #                #             AVG. #       TOTAL $          AVG. $
CHARGE         SECURITY         CHARGES          CHARGES       CHARGES         CHARGES
Misc. Retail      13               55              4.2          $3,250           $250
Vendors
Duty Station         9              28              3.1            576             64
Restaurants
Recreational         9              16              1.8           3,114            346
Vendors
Department           8              14              1.8            920             115
Stores
Duty Station         6              44              7.3           1,547            258
Grocery
Auto Svc,            6              12               2            1,030            172
Repair, Ins
Internet,            5              17              3.4           1,683            337
Telephone
Home                 2               2               1              30             15
Furnishings
Hardware,            2               7              3.5            334             167
Bldg Supp
Video                0
Movie Rent
Cosmetic             2               3              1.5           2,658           1,329
Vendors
Bookstores           1               1               1              40             40

Other                5              17              3.4           4,378            876

Total                               216                          $19,560




                                            29
                                                                       APPENDIX B


The table below shows the Card Returned sample total of possible misuses of travel cards
by type of vendor. This includes the activity for one cardholder.

TYPE OF         # CARD            #              AVG. #      TOTAL $         AVG. $
CHARGE          RETURN         CHARGES          CHARGES      CHARGES        CHARGES
Misc. Retail       1              2                2           $33            $33
Vendors
Duty Station        1               1              1             18             18
Restaurants
Recreational        1               1              1             49             49
Vendors
Department          0
Stores
Duty Station        1               1              1             84             84
Grocery
Auto Svc,           0
Repair, Ins
Internet,           0
Telephone
Home                0
Furnishings
Hardware,           0
Bldg Supp
Video               0
Movie Rent
Cosmetic            0
Vendors
Bookstores          0

Other               0

Total                               5                           $184




                                           30
                                                                      APPENDIX B


The table below shows the Card Not Used sample total of possible misuses of travel
cards by type of vendor. This includes the activity for one cardholder.

TYPE OF         # CARD           #              AVG. #      TOTAL $         AVG. $
CHARGE         NOT USED       CHARGES          CHARGES      CHARGES        CHARGES
Misc. Retail       0
Vendors
Duty Station        0
Restaurants
Recreational        0
Vendors
Department          0
Stores
Duty Station        0
Grocery
Auto Svc,           0
Repair, Ins
Internet,           0
Telephone
Home                0
Furnishings
Hardware,           0
Bldg Supp
Video               0
Movie Rent
Cosmetic            0
Vendors
Bookstores          0

Other               0

Total                              0                             $0




                                          31
                                                                           APPENDIX B


The table below shows the Individual Billed Accounts Credit Limit Variance sample total
of possible misuses of travel cards by type of vendor. This table includes duplications by
strata (i.e. past due, security etc.). This table includes the activity for five cardholders.

TYPE OF         # IBA $            #               AVG. #        TOTAL $         AVG. $
CHARGE         VARIANCE         CHARGES           CHARGES       CHARGES         CHARGES
Misc. Retail       1               1                 1             $13            $13
Vendors
Duty Station          0
Restaurants
Recreational          1               2               2              53              53
Vendors
Department            0
Stores
Duty Station          0
Grocery
Auto Svc,             0
Repair, Ins
Internet,             0
Telephone
Home                  0
Furnishings
Hardware,             0
Bldg Supp
Video                 0
Movie Rent
Cosmetic              0
Vendors
Bookstores            1               2               2              64              64

Other                 0

Total                                 5                             $130




                                             32
                                                                      APPENDIX B


The table below shows the Separated employees with open accounts sample total of
possible misuses of travel cards by type of vendor. This table includes separated
employees. This table includes the activity for 14 cardholders.

TYPE OF            #             #              AVG. #      TOTAL $         AVG. $
CHARGE         SEPARATE       CHARGES          CHARGES      CHARGES        CHARGES
Misc. Retail       0
Vendors
Duty Station        0
Restaurants
Recreational        0
Vendors
Department          0
Stores
Duty Station        0
Grocery
Auto Svc,           0
Repair, Ins
Internet,           0
Telephone
Home                0
Furnishings
Hardware,           0
Bldg Supp
Video               0
Movie Rent
Cosmetic            0
Vendors
Bookstores          0

Other               0

Car Rental          1              3              3             537            537
Total                              3                           $537




                                          33
                                                                          APPENDIX B


The table below shows the Centrally Billed Accounts with a credit limitation variance
sample total of possible misuses of travel cards by type of vendor. This table includes
duplications. The results below are for an individually billed account for a cardholder
who is also a centrally billed account cardholder. This table includes the activity for four
cardholders.

TYPE OF         # CBA $            #               AVG. #        TOTAL $         AVG. $
CHARGE         VARIANCE         CHARGES           CHARGES       CHARGES         CHARGES
Misc. Retail       1               1                 1            $350            $350
Vendors
Duty Station          0
Restaurants
Recreational          1               1              1              250             250
Vendors
Department            0
Stores
Duty Station          0
Grocery
Auto Svc,             0
Repair, Ins
Internet,             0
Telephone
Home                  0
Furnishings
Hardware,             0
Bldg Supp
Video                 0
Movie Rent
Cosmetic              0
Vendors
Bookstores            0

Other                 0

Total                                 2                            $600




                                             34
                                                                      APPENDIX C


                       SAMPLE RESULTS BY MAGNITUDE

The table below shows the magnitude of possible misuse charges by individual staff
according to central office or regional (includes AMAC) staff.

STAFF TYPE           TOTAL               1-3              4-10              11+
                     STAFF            POSSIBLE          POSSIBLE          POSSIBLE
                                      MISUSES           MISUSES           MISUSES
SSPs                    19               14                 3                2
Non-SSPs:
Central Office          12                 4                 3                 5
Regional                33                18                 8                 7
Separated                5                 1                 3                 1
       Total            69                37                17                15


The table below shows the magnitude of possible misuse by dollar amount for central
office or regional (includes AMAC) staff.

STAFF TYPE           TOTAL             $1-$100          $101-$500           $501+
                     STAFF            POSSIBLE          POSSIBLE          POSSIBLE
                                       MISUSE            MISUSE            MISUSE
SSPs                    19                9                 7                 3
Non-SSPs:
Central Office          12                 3                 5                 4
Regional                33                11                11                11
Separated                5                                   1                 4
       Total            69                23                24                22




                                          35
